CERTIFICATE OF COMPLIANCE

Pursuant to Supreme Court Rule 33 and in compliance with 28 U.S. C. ยง 1746,
I hereby certify that this corrected Petition For Writ Of Certiorari to the U.S.
Supreme Court, dated June 24, 2019, complies with the type-volume
limitation. According to Microsoft Word, the Petition contains 8,947 words and
has been prepared in a proportionally spaced typeface using Century
Schoolbook font in 12 point size.

Dated this 10th day of July 2019,

Veronica W. Ogunsula, [Pro Se
9801 Apollo Drive, #63^4
Largo, Maryland 20792
240-486-1427

1

